                             Department of the Interior
                             Office of Inspector General




               AUDIT REPORT



               U.S. Fish and Wildlife Service
            Wildlife and Sport Fish Restoration
             Program Grants Awarded to the
                 State of North Carolina,
               Division of Marine Fisheries,
          From July 1, 2005 Through June 30, 2007




Report No. R-GR-FWS-0008-2008            November 2008
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                             November 21, 2008

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:   for Christina M. Bruner
           Regional Manager, Eastern Region

Subject:   Audit on U.S. Fish and Wildlife Service Sport Fish Restoration Program Grants
           Awarded to the State of North Carolina, Division of Marine Fisheries, From July 1,
           2005 Through June 30, 2007 (No. R-GR-FWS-0008-2008)

        This report presents the results of our audit of costs incurred by the State of North
Carolina (State), Division of Marine Fisheries (Division), under grants awarded by the U.S. Fish
and Wildlife Service (FWS). FWS provided the grants to the State under the Sport Fish
Restoration Program (the Program). The audit included claims totaling approximately $5.1
million on 36 grants that were open during Division of Marine Fisheries’ State fiscal years
(SFYs) ended June 30 of 2006 and 2007 (see Appendix 1). The audit also covered the Division’s
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of fishing license revenues and the reporting of program income.

        We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements. However, we found that the Division overcharged FWS grants for
health benefit premiums.

        We provided a draft report to FWS for a response. We summarized the Division and
FWS responses to the recommendations, as well as our comments on the response. We list the
status of each recommendation in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
February 19, 2009. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader,
Lawrence Kopas, or me at 703–487–5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service
                                          Introduction
Background
The Dingell-Johnson Sport Fish Restoration Act (Act) 1 established the Sport Fish Restoration
Program. Under the Program, FWS provides grants to States to restore, conserve, manage, and
enhance their sport fish resources. The Act and federal regulations contain provisions and
principles on eligible costs and allow FWS to reimburse States up to 75 percent of the eligible
costs incurred under the grants. The Act also requires that fishing license revenues be used only
for the administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Division:

      •    claimed the costs incurred under the Program grants in accordance with the Act and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State fishing license revenues solely for sport fish program activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $5.1 million on the 36 grants that were open
during SFYs ended June 30 of 2006 and 2007 (see Appendix 1). We report only on those
conditions that existed during this audit period. We performed our audit at Division
Headquarters in Morehead City, NC, and visited three district offices and one field office (see
Appendix 2). We performed this audit to supplement, not replace, the audits required by the
Single Audit Act Amendment of 1996 and by Office of Management and Budget Circular
A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and


1
    16 U.S.C. § 777, as amended.

                                                    2
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Division;

   •   reviewing transactions related to purchases, direct costs, and drawdowns of
       reimbursements;

   •   interviewing Division employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment;

   •   determining whether the Division used fishing license revenues solely for administration
       of sport fish program activities; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Act.

We also identified the internal controls over transactions recorded in the labor accounting system
and tested its operation and reliability. Based on the results of initial assessments, we assigned a
level of risk to this system and selected a sample of transactions recorded in the system for
testing. We did not project the results of the tests to the total population of recorded transactions
or evaluate the economy, efficiency, or effectiveness of Division operations. The review of
internal controls over transactions recorded in the license fee accounting system was performed
under the audit for the North Carolina Wildlife Resources Commission (R-GR-FWS-0007-
2008).

Prior Audit Coverage
On December 1, 2004, we issued “Final Audit Report on the U.S. Fish and Wildlife Service
Federal Assistance Grants Administered by the State of North Carolina, Division of Marine
Fisheries from July 1, 2001, through June 30, 2003” (Report No. R-GR-FWS-0011-2004).
We followed up on all recommendations in the report and found that they were all resolved and
implemented.

We reviewed the Single Audit Report and the Comprehensive Annual Financial Report for the
SFY2007. Neither report contained findings requiring corrective actions by the Division.




                                                  3
                                    Results of Audit
Audit Summary
We found that the Division complied, in general, with applicable grant agreement provisions and
requirements of the Act, regulations, and FWS guidance. We identified one condition where the
Division overcharged Program grants for health benefit premiums. We discuss the finding in
more detail below.

Finding and Recommendations
The Division overcharged Program grants for State-paid health premiums. Before October 2006,
the State offered only a State Health Plan to employees for their health benefits. The State paid
$321.14 per employee per month for these benefits. Beginning in October 2006, the State made
available to employees an additional Preferred Provider Organization (PPO) for health benefits.
The State paid $311.52 per employee per month for the PPO benefits. The State Time Cost
Allocation System (system) used by the Division was not updated to reflect the use of the new
rate by some employees. For each employee enrolled in the PPO who charged time to the
Program grants, the system continued using a monthly rate of $321.14 instead of the correct rate
of $311.52. For these employees, the Division overcharged the Program grants $9.62 per month
per employee.

Under the Code of Federal Regulations (50 C.F.R. §§ 80.15 and 80.16), grantees may charge to
the grants only costs which are necessary and reasonable for accomplishment of approved
project purposes and which are in accordance with the cost principles of 2 C.F.R. § 225. These
regulations also specify that the federal share of allowable costs include only costs incurred by
the State in accomplishing approved projects.

Division officials responded that as of June 2008, the State no longer carries the State Health
Plan and this problem will not be an issue for cost allocations after June 2008. They added that
the programmer responsible for the allocation system was not aware that there were two rates.
The payroll files did include a code for each rate that could have been used to identify each
employee’s health plan rate. The officials added that all grants during the audit period will be
recalculated to determine any excess charges to the Program grants. They will report this
information to FWS.

We recommend that FWS ensure the Division:

1. calculates the correct health insurance costs for the audit period for all FWS grants and
   reimburses or otherwise resolves any overcharges to the grants, and

2. develops policies and procedures to ensure that health insurance costs are correctly
   calculated.


                                                4
Division Response

Division officials concurred that FWS Program grants were overcharged for health premiums
and calculated the amounts owed to FWS on the individual grants. The total amount of $594.24
was credited back to FWS on Grant Agreement No. F-31-22 in July 2008. In addition, they said
that, beginning July 1, 2008, the State only offers one health care plan for all State employees, so
this issue will no longer occur. The officials also indicated the possibility of additional payments
to FWS for grants in fiscal year 2008.

FWS Response

FWS management concurred with the audit recommendations.

OIG Comments

Based on the Division and FWS response, additional information is needed in the corrective
action plan, including:

•   the specific action(s) taken or planned to address the recommendation;

•   targeted completion dates;

•   titles of officials responsible for implementing the actions taken or planned; and

•   verification that FWS headquarters officials reviewed and approved of actions taken or
    planned by the Division.




                                                 5
                                                   Appendix 1

NORTH CAROLINA DIVISION OF MARINE FISHERIES
  F INANCIAL SUMMARY OF R EVIEW C OVERAGE
        JULY 1, 2005 THROUGH JUNE 30, 2007

  GRANT NUMBER    GRANT AMOUNT     CLAIMED COSTS
     F-25-20         $208,000         $160,817
     F-25-21           210,000          249,900
     F-25-22           244,981           87,802
     F-28-20           120,000           32,871
     F-28-21           152,000           44,153
     F-28-22            88,784           28,307
     F-31-19           316,000          354,048
     F-31-20           326,000          365,958
     F-31-21           392,472          159,093
     F-41-15           136,000           26,823
     F-41-16           127,000           34,435
     F-41-17           105,216           23,952
     F-42-15           250,000          244,303
     F-42-16           242,452          234,380
     F-42-17           229,000          104,848
     F-56-12           370,000          401,940
     F-56-13           348,000          344,050
     F-56-14           348,763          301,013
     F-70-5            216,000          197,892
     F-70-6            256,000          217,867
     F-74-4             80,000           41,918
     F-75-5            214,667          225,096
     F-75-6            234,900          162,291
     F-75-7            234,900           13,543
     F-78-1            160,000          115,633
     F-79-2            136,000          153,020
     F-79-3            110,861           53,061
     F-80-2            128,000           92,400
     F-80-3            128,000           98,407
     F-80-4            128,000           26,663
     F-81-2            100,000           47,645
     F-81-3            102,000           56,402
     F-81-4            104,000           14,948
     F-83-1            418,008          214,439
     F-84-1            164,000          191,275
     F-88-1             24,000                0
     TOTAL          $7,154,004       $5,121,193


                        6
                                              Appendix 2

NORTH CAROLINA DIVISION OF MARINE FISHERIES
              SITES VISITED


          Division of Marine Fisheries

          Headquarters (Morehead City)


                District Offices

            Northern (Elizabeth City)
             Pamlico (Washington)
             Southern (Wilmington)


                  Field Office

                   Wanchese




                       7
                                                                              Appendix 3


            NORTH CAROLINA DIVISION OF MARINE FISHERIES
           STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations             Status                          Action Required

1 and 2           FWS management concurs       Additional information is needed in the
                  with the recommendations,    corrective action plan, including the
                  but additional information   actions taken or planned to implement the
                  is needed, as outlined in    recommendations, targeted completion
                  the “Actions required”       date(s), the title of official(s) responsible
                  column.                      for implementation, and verification that
                                               FWS officials reviewed and approved of
                                               actions taken or planned by the State. We
                                               will refer recommendations not resolved
                                               and/or implemented at the end of 90 days
                                               (after February 19, 2009) to the Assistant
                                               Secretary for Policy, Management and
                                               Budget for resolution and/or tracking of
                                               implementation.




                                         8
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
